NO.

IN THE

Supreme Court of tfje fHmteb H>tate£
OCTOBER TERM, 2016

MARTIN L. HARRELL, Petitioner,
v.
UNITED STATES OF AMERICA, Respondent.

PROOF OF SERVICE

I, Martin L. Harrell, do swear and declare that on October 22nd 2020, as
required by Supreme Court Rule 29,1 have served the enclosed Motion for
Leave to Proceed In Forma Pauperis, Petition for Writ of Certiorari with
Appendices, and Notice of Timely Filing on counsel for the sole party to the
proceeding, the United States of America: Office of the Solicitor General, 950
Pennsylvania Ave., NW, Washington, DC 20530-0001, by delivering the same
to prison officials, properly addressed and first-class postage prepaid, for
forwarding through the prison legal mailing system and U.S. Mail.
I declare under penalty of perjury that the foregoing is true and correct.
Executed this 22nd day of October, 2020.
Martin L. Harrell, Pro Se

